IN THE SUPREME COURT OF THE UNITED STATES

BANNISTER, ELIZABETH R., ET AL.
Petitioner
vs.

No:

20-1206

MERRICK B. GARLAND, ATTORNEY GENERAL
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

ELIZABETH B. PRELOGAR
Acting Solicitor General
Counsel of Record
March 24, 2021
cc:

See Attached List

MAHESHA P. SUBBARAMAN
SUBBARAMAN PLLC
222 S. STREET
SUITE 1600
MINNEAPOLIS, MN 55402
FREDERICK MATTHEW RALPH
DORSEY & WHITNEY LLP
50 SOUTH SIXTH STREET
SUITE 1500
MINNEAPOLIS, MN 55402
KATHLEEN A. MOCCIO
UNIVERISTY OF MINNESOTA LAW
SCHOOL
229 19TH AVENUE SOUTH
MINNEAPOLIS , MN 55402
ALICIA GRANSE
701 4TH AVENUE SOUTH
#1400
MINNEAPOLIS, MN 55415
KATHERINE S. BARRETT WIIK
BEST & FLANAGAN LLP
60 SOUTH SIXTH STREET
SUITE 2700
MINNEAPOLIS, MN 55402

